                   U. S. Department of the Interior
                   Office of Inspector General




Transfer of
Bureau of
Reclamation
Fiscal
Responsibilities
for Central
Valley Project
Jeopardizes
Federal
Revenues


                                               Friant Dam and Millerton Lake
                                        Photo Courtesy Bureau of Reclamation




              Review of Central Valley Project
                  Responsibilities Transferred
    Under Direct Funding Agreements Between
   BOR and Three California Water Authorities


                                    Report No. 2002-I-0052
                                           September 2002
                 United States Department of the Interior

                                  Office of Inspector General
                                                                          Return to Contents
                                       Western Region
                                            Federal Building
                                     2800 Cottage Way, Suite E-2712
                                       Sacramento, California 95825




                                                                                    7430
                                                                      September 30, 2002
Memorandum

To:      Assistant Secretary for Water and Science

From:    Michael P. Colombo
         Regional Audit Manager

Subject: Final Report, Review of Transferred Responsibilities for Aspects of the Central
         Valley Project, Bureau of Reclamation (No. 2002-I-0052)

      The attached report presents the results of our review of the direct funding
agreements between the Bureau of Reclamation’s (BOR) Mid-Pacific Region and three
California Water Authorities, which transferred aspects of responsibility for the Central
Valley Project (CVP) from Federal to local control. Under the agreements, the Water
Authorities were authorized to directly fund operation and maintenance (O&M) of certain
CVP facilities through assessments of their member water districts. The Water
Authorities were also authorized to act as fiscal agents for BOR by assuming
responsibility for collecting and accounting for payments due the government for water
deliveries.

      We found that the direct funding of O&M responsibilities to the Water Authorities
has generally been successful. We also found, however, that the transfer of fiscal
responsibilities has not been successful. Indeed the Water Authorities’ assumption of
these responsibilities revealed an inherent conflict of interest between the Water
Authorities acting as fiscal agents for BOR and representing their member water districts.
The Water Authorities, for example, have no financial incentive to enforce the contracts
between the Region and the water districts, deposit revenues to the U.S. Treasury on
time, or ensure that the Region has sufficient information to maintain accurate accounting
and water measurement records. The Water Authorities also continued their practice of
co-mingling certain Federal revenues, even after this practice was found to be illegal by
the Department of the Interior’s Field Solicitor in Sacramento. The transfer of fiscal
responsibilities has been detrimental to the government and has significantly increased
the risk of loss or misappropriation to Federal revenues.

     In his September 12, 2002 response (Appendix 1), the Commissioner, Bureau of
Reclamation, concurred with all four of the report’s recommendations. Based on the
response, we consider Recommendations 1 and 2 resolved and implemented and
Recommendations 3 and 4 resolved. As such, we are referring Recommendations 3 and 4
to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

    The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit reports issued, actions taken to implement
our audit recommendations, and recommendations that have not been implemented.

    We appreciate the cooperation shown by BOR staff during our review and commend
BOR for taking immediate action to remedy the deficiencies that prompted our
recommendations. A response to this report is not required. If you have any questions
regarding the report, however, please call me at (916) 978-5653.

Attachment

cc:   Audit Liaison Officer, Assistant Secretary for Water and Science (MS 6640)
      Commissioner, Bureau of Reclamation (MS 7654)
      Associate Solicitor for Land and Water Resources (MS 6412)
      Chief of Staff, Bureau of Reclamation (MS 7654)
      Audit Liaison Officer, Bureau of Reclamation




                                            2
Executive Summary
Direct Funding Agreements
Bureau of Reclamation
Transfer of              The Central Valley Project (CVP), a large Federal water supply
CVP Fiscal               project in California’s Central Valley, has historically been
                         viewed as a partnership between the Bureau of Reclamation
Responsibilities         (BOR), which constructed the project, and the local people who
to Water                 benefit from CVP water supplies. Reclamation law1 and current
                         and past administrations have encouraged transferring
Authorities              responsibility for the CVP and other BOR facilities to local
Places Federal           control to the extent possible.
Revenues at              The transfer of operation and maintenance (O&M)
Risk                     responsibilities for the CVP to local control has generally been
                         successful. Over the past 15 years, three California Water
                         Authorities,2 representing local water districts that have
                         individually contracted with BOR for CVP water, have
                         demonstrated their ability to operate and maintain the CVP
                         facilities within their service areas. BOR began transferring
                         O&M to the Water Authorities in the 1980s under cooperative
                         agreements that explored the benefits of allowing the Water
                         Authorities to perform O&M using Federally appropriated funds.
                         These agreements were replaced in the mid-1990s by direct
                         funding agreements that allowed the Water Authorities to forego
                         the use of Federal appropriations and directly fund O&M through
                         assessments of the local water districts.

                         The direct funding agreements also expanded BOR’s partnership
                         with the Water Authorities by designating the Water Authorities
                         as “fiscal agents” for BOR and giving them the responsibility to
                         collect Federal revenues due the government for CVP water
                         deliveries to the water districts. We believe, however, that the
                         Water Authorities’ assumption of the role of fiscal agents for
                         BOR has proved to be unsound and has, in fact, resulted in a
                         relationship between BOR and the Water Authorities that is
                         adversarial and counter to a mutually beneficial partnership.
                         This adversarial relationship was clearly demonstrated in the


      1
        Reclamation law is a term used to refer to the total body of public laws governing the
      reclamation program, beginning with the Reclamation Act of 1902 and including all subsequent
      laws that amended and supplemented the Act.
      2
       The three Water Authorities are the Tehama-Colusa Canal Authority, the San Luis and Delta-
      Mendota Water Authority, and the Friant Water Users Authority, which collectively represent a
      significant portion of the service areas served by CVP facilities.


                                               i
Water Authorities’ refusal to comply with BOR’s June 7, 2000
letter, which stated that the Water Authorities should not use
Federal revenues to offset unpaid O&M assessments and
should remit Federal funds within 3 business days of receipt.
Instead, the Water Authorities continued to offset unpaid O&M
assessments, even after offsets were determined to be illegal,
and failed to remit Federal funds within 3 days.

We did not identify any benefit for leaving Federal funds in the
control of the Water Authorities and found a significantly
increased risk of loss or misappropriation to the revenues if
they were not remitted directly to the U.S. Treasury. In
addition, there is an inherent conflict of interest between the
Water Authorities’ responsibilities as representatives for their
member water districts and their responsibilities as fiscal
agents for BOR. This conflict of interest, combined with the
failure of either BOR or the Water Authorities to establish
controls ensuring that Federal revenues were accurate and
properly accounted for, jeopardized these revenues and
hindered BOR from (1) accounting for water deliveries and
district payments, (2) reconciling water deliveries to revenues
received, and (3) generally maintaining reliable accounting
records.

As a result of these control weakness, we were unable to
confirm that BOR received all revenues due under contracts
with water districts. As long as the government holds title to
CVP facilities, BOR is ultimately responsible for enforcing
contract terms and ensuring that district payments for water
deliveries comply with applicable water service contracts and
that appropriate interest and late charges are assessed for late
payments. BOR should also ensure that the Water Authorities
accurately and consistently measure the water delivered to the
water districts by establishing a Quality Assurance Program
over water measurement.

We made four recommendations to address the deficiencies
identified during our review. In his September 12, 2002
response, the Commissioner, Bureau of Reclamation,
concurred with all four recommendations and provided
supporting documentation sufficient for us to consider
Recommendations 1 and 2 resolved and implemented and
Recommendations 3 and 4 resolved. As such, we are referring
Recommendations 3 and 4 to the Assistant Secretary for
Policy, Management and Budget for tracking of
implementation.



                      ii
Contents                                                                                                  Page
  Return to Cover

                    Background ...............................................................................1
                       CVP—A Partnership Between Federal and Local
                        Interests .............................................................................2
                       Water Authorities Agree to Assume Responsibility
                        for O&M and Act as BOR’s Fiscal Agents .......................3

                    Objective and Scope ..................................................................4

                    Transfer of BOR’s Fiscal Responsibilities
                     Jeopardizes Federal Revenues ................................................5
                       Conflict of Interest Inherent in Water Authorities
                         Acting as BOR’s Fiscal Agents ......................................6
                       Direct Funding Agreements Deficient ................................6
                       Risk to Federal Revenues Significantly Increased ..............7
                       Solicitor Questions Legality of Water Authority
                         Practices .........................................................................12

                    Related Issue: Quality Assurance Over Water
                     Measurement Needed ...........................................................13

                    Recommendations ...................................................................14

                    BOR Response and Office of Inspector General
                        Reply ..............................................................................15

                    Appendices
                        1      Bureau of Reclamation Response .......................16
                        2      Status of Audit Recommendations .....................19



                    List of Abbreviations

                    BOR ....................................................... Bureau of Reclamation
                    CVP..........................................................Central Valley Project
                    Friant .............................................Friant Water Users Authority
                    O&M ............................................... Operation and Maintenance
                    San Luis ............. San Luis and Delta-Mendota Water Authority
                    Tehama.................................... Tehama-Colusa Canal Authority
                    USC...............................................................United States Code




                                                iii
Central Valley Project,
California
Figure 1




                          iv
Background                 The Central Valley Project (CVP), located in the Central Valley3
                           of California, is the largest water supply project in the United
 Return to Contents        States. Authorized by Congress in 1937, the CVP was conceived
                           as a means to store the Valley’s winter runoff for use in the
                           summer and fall growing seasons and to redistribute water from
                           the northern half of the Valley, which receives most of the
                           rainfall, to the southern half, which has most of the farmland.

                           The Valley is semi-arid, receiving the majority of its rainfall
                           between December and April. Without irrigation, large-scale
                           farming would not be possible. The irrigation supplied by
                           the CVP has helped turn the Valley into one of the most
                           productive agricultural regions in the world. The CVP is also
                           vital to the water supply of California. Almost 60 percent of
                           the surface water used in California originates in the Central
                           Valley, with nearly half of that amount controlled through the
                           CVP. CVP benefits include flood control; power generation;
                           water for irrigation, municipal and industrial use; recreation;
                           and fish and wildlife enhancement.

                           The CVP stores and distributes water supplies through a vast
                           network of 20 dams and reservoirs, 11 powerplants, and
                           500 miles of canals and related facilities (Figure 1). Major
                           canals include (1) the 111-mile-long Tehama-Colusa Canal,
                           which delivers water diverted from the Sacramento River at
                           Red Bluff Diversion Dam to lands on the west side of the
                           Sacramento Valley; (2) the 117-mile-long Delta-Mendota
                           Canal, which delivers water pumped into the canal at the
                           Tracy Pumping Plant in the Sacramento-San Joaquin Delta to
                           lands on the west side of the San Joaquin Valley; and (3) the
                           151-mile-long Friant-Kern Canal, which delivers water
                           diverted from Friant Dam on the San Joaquin River
                           southward to Bakersfield. The majority of the water districts
                           served by these three major water distribution systems are
                           represented by three Water Authorities, established under
                           California state law. The Water Authorities are the Tehama-
                           Colusa Canal Authority (Tehama), the San Luis and Delta-


       3
        The Valley, which is about 450 miles long and 50 miles wide, covers about one-third of the
       State of California and is drained by two river systems: the Sacramento River in the north and
       the San Joaquin River in the south. The Sacramento River and its tributaries flow generally
       southward; the San Joaquin River and its tributaries flow generally northward. The two rivers
       meet in the Sacramento-San Joaquin Delta and flow through a narrow gap in the mountains
       surrounding the Valley into the San Francisco Bay and the Pacific Ocean.
                     Mendota Water Authority (San Luis), and the Friant Water Users
                     Authority (Friant).4

                     Most farmers receiving CVP water are organized into water
                     districts that have negotiated water service contracts with the
                     Bureau of Reclamation (BOR), which constructed the CVP.
                     BOR is responsible for operating and maintaining CVP facilities,
                     collecting revenues due from the water districts, and keeping
                     official accounting records. The water service contracts establish
                     the terms and conditions for the districts to pay for water
                     deliveries, based on water rates determined by BOR. The rates
                     include BOR’s construction costs and operation and maintenance
                     (O&M) costs. The districts also pay annual charges assessed
                     against their water deliveries under the 1992 Central Valley
                     Project Improvement Act. The charges are banked in a
                     Restoration Fund created under the Act to pay for activities to
                     restore fish and wildlife populations and habitats affected by
                     construction of the CVP. Water districts with a limited ability to
                     pay are not required to pay either construction costs or the annual
                     charges on irrigation water deliveries. These districts are,
                     however, required to pay O&M costs.

CVP—A                Although the Federal government holds title to the CVP, the
Partnership          project is in essence a partnership between the government and
Between              CVP beneficiaries. Over the years, Reclamation law and Federal
Federal and          policy have established and encouraged transferring aspects of
                     O&M for the CVP to local control. Water districts, likewise,
Local                have expressed a desire for increased control over CVP facilities,
Interests            particularly O&M. Both BOR and water districts realized that
Return to Contents   under local control, O&M deficiencies could be identified,
                     budgeted for, and corrected within about a year’s time. Federal
                     control of O&M, on the other hand, was subject to the Federal
                     appropriation process, which could take up to 5 years from the
                     time O&M needs were identified to make funds available. In
                     addition, because of the competition with other Federal priorities,
                     there was no assurance that O&M funds would be available
                     when they were needed.

                     In 1986, BOR began transferring O&M responsibility to the three
                     Water Authorities. Through cooperative agreements executed with




     4
       Each of the three Water Authorities was formed through a joint powers agreement with the
     local water districts they were to represent. Each of the water districts has a contract with
     BOR for the delivery of CVP water.


                                             2
                         BOR,5 these Water Authorities assumed responsibility for
                         operating and maintaining certain CVP facilities using Federally
                         appropriated funds.
Water                    By the mid-1990s, the Water Authorities had demonstrated their
Authorities              ability to perform O&M and were interested in directly funding
Agree to                 (without Federal appropriations) their O&M costs via
Assume                   assessments to the water districts they served. Similarly, BOR’s
Responsibility           policy was to pursue cost-sharing or partnership agreements with
                         CVP beneficiaries to reduce the need for appropriated funds and
for O&M and              to continue to implement partnerships with local entities.
Act as BOR’s             Accordingly, BOR and the Water Authorities replaced the
Fiscal Agents            cooperative agreements with direct funding agreements that
Return to Contents
                         confirmed the success of the transfer of O&M responsibility and
                         expanded the partnership between BOR and the Water
                         Authorities by transferring additional responsibilities to the
                         Water Authorities. BOR executed a direct funding agreement
                         with Tehama in September 1996 (effective October 1, 1996) and
                         agreements with San Luis and Friant in May 1998 (retroactive to
                         March 1, 1998). Under the agreements, the Water Authorities
                         continued to perform O&M and assumed responsibilities as
                         BOR’s fiscal agents, as follows:

                           Assumption of O&M                  Assumption of “Fiscal Agent”
                             Responsibilities                      Responsibilities

                       Allowed Water Authorities to            Designated the Water Authorities
                       directly fund O&M through               as BOR’s fiscal agents, responsible
                       assessments of water districts.         for collecting revenues due BOR
                                                               from water districts
                       Provided for each Water
                       Authority to develop a                  Required Water Authorities to
                       methodology and budget to               invest the collected Federal
                       cover O&M costs.                        revenues in accordance with
                                                               established Water Authority
                       Allowed Water Authorities to            investment policies.
                       use Federal revenues to fund
                       (offset) deficiencies in O&M            Required Water Authorities to
                       recovery.                               remit Federal revenues and interest
                                                               earnings to BOR within 60 days
                                                               following the end of the month in
                                                               which Water Authorities received
                                                               funds.
                                                              Water Authority Responsibilities
                                                             Under Direct Funding Agreements
                                                                                       Figure 2
       5
        Tehama entered into a cooperative agreement with BOR on October 13, 1988; San Luis on
       September 30, 1992, and Friant on August 19, 1986.


                                            3
                         From the inception of the direct funding agreements through
                         water year 2000 (ending February 28, 2001), the Water
                         Authorities collected Federal revenues totaling $207 million
                         (see Figure 3).



       $60,000,000

       $50,000,000

       $40,000,000
                                                                              Tehama
       $30,000,000
                                                                              San Luis
                                                                              Friant
       $20,000,000

       $10,000,000

                 $-
                      1996      1997       1998         1999      2000
                                                  Water Year


                                                           Federal Revenues Collected
                                                                by Water Authorities
                                                                           Figure 3


Objective                Our objective was to determine whether BOR, in adopting
                         direct funding agreements with the three Water Authorities,
and Scope                established the accounting and management controls necessary
                         to ensure that all Federal funds were collected and deposited to
 Return to Contents
                         the U.S. Treasury. We generally limited the scope of our audit
                         to water year 2000 (March 1, 2000 to February 28, 2001).
                         During our review, we noted deficiencies related to water
                         measuring that affected the integrity of the revenue collection
                         process and included these water-measuring activities in our
                         review. We conducted our audit in accordance with the
                         Government Auditing Standards, issued by the Comptroller
                         General of the United States, and included such tests of records
                         and other auditing procedures that were considered necessary
                         to meet our objective.

                         As part of our audit, we evaluated BOR’s system of internal
                         controls related to overseeing and managing the accounting and
                         operational aspects of the direct funding agreements and found
                         weaknesses in BOR controls over enforcement of contract
                         payment terms, timeliness of deposits into the U.S. Treasury,
                         maintenance of accurate accounting records, and assurance of



                                             4
                         accurate measurement of water deliveries. Our
                         recommendations, if implemented, should correct these
                         weaknesses.

                         We also reviewed Department of the Interior Reports on
                         Accountability for fiscal years 2000 and 2001, which included
                         information required by the Federal Manager’s Financial
                         Integrity Act of 1982, and BOR’s annual assurance statements on
                         management controls for fiscal years 2000 and 2001 and
                         determined that BOR had not reported any material weaknesses
                         that directly related to the objective and scope of our review.

                         To accomplish our audit, we visited BOR’s Mid-Pacific Regional
                         Office in Sacramento, California; its South-Central California
                         Area Office in Fresno, California; and its field offices in Willows
                         and Byron, California. We interviewed BOR personnel and
                         reviewed records concerning the negotiation and implementation
                         of the direct funding agreements. We also visited the offices of
                         the three Water Authorities (Tehama in Willows, California; San
                         Luis in Los Banos, California; and Friant in Lindsay, California).
                         We reviewed Water Authority financial statements, operating
                         procedures, and other records pertaining to the collection of
                         Federal funds. We also interviewed Water Authority personnel
                         responsible for administering the direct funding agreements.


Transfer of              BOR’s execution of direct funding agreements with the three
BOR’s Fiscal             Water Authorities successfully implemented BOR’s policy of
                         promoting partnerships with local water users in terms of O&M.
Responsibilities         The Water Authorities demonstrated their ability to maintain the
Jeopardizes              CVP facilities within their service areas. The Water Authorities,
                         however, were not successful in assuming the responsibility of
Federal                  acting as fiscal agents for BOR because (1) there was an inherent
Revenues                 conflict of interest between their role as fiscal agents and their
                         representation of the water districts and (2) the agreements did
    Return to Contents
                         not provide sufficient accounting and management controls to
                         clearly establish that all funds collected from the sale of water
                         were correct and properly deposited to the U.S. Treasury. The
                         lack of controls stemmed from the failure of BOR to clearly
                         specify the duties and responsibilities of “fiscal agents” in the
                         agreements or issue sufficient augmenting control procedures to
                         the Water Authorities to ensure timely and proper collection and
                         deposit of funds. As a result, the risk of loss or misappropriation
                         of Federal revenues was significantly increased.




                                         5
Conflict of          Assuming the role of fiscal agents for BOR was inherently a
Interest             conflict of interest for the Water Authorities. As
Inherent in          representatives of their member water districts, the Water
Water                Authorities essentially work for these districts. For example,
Authorities          Water Authority Boards of Directors are made up of senior
                     management officials from member water districts. In
Acting as            addition, the Water Authorities’ assumption of the role of fiscal
BOR’s                agents created a situation in which the Water Authorities did
Fiscal               not have a financial interest in some of the fiduciary
Agents               responsibilities inherent to BOR. While the Water Authorities
Return to Contents
                     and the districts they serve receive a significant financial
                     benefit from O&M of the CVP’s delivery systems, the Water
                     Authorities do not have a similar financial interest in ensuring
                     that the Federal government receives revenues owed for the
                     construction of the CVP. Accordingly, establishing adequate
                     controls for BOR and the Water Authorities was critical to the
                     success of transferring fiscal responsibilities for the CVP.

Direct               In negotiating the direct funding agreements, BOR
Funding              management officials did not draw on the advice of the
Agreements           accounting and rate-setting personnel who would be
                     responsible for the day-to-day administration of the
Deficient            agreements’ financial terms. Consequently, successfully
Return to Contents   implementing the transfer of fiscal responsibilities was
                     immediately problematic in several areas, as follows:

                            BOR and Water Authority Responsibilities Were
                            Poorly Defined. The agreements did not clearly
                            delineate the respective responsibilities of BOR and the
                            Water Authorities or contain procedures for effectively
                            transferring financial responsibilities. For example, the
                            agreements did not require the Water Authorities to
                            enforce the payment requirements of BOR’s water
                            service contracts with individual water district, which is
                            an essential part of BOR’s fiduciary responsibilities.
                            BOR should have issued guidelines and procedures
                            augmenting the direct funding agreements and clarifying
                            the respective roles of the Water Authorities and BOR.

                            Agreements Allowed Offsetting. The agreements
                            allowed the Water Authorities to use the Federal
                            revenues collected for water deliveries to some water
                            districts to cover other water districts’ unpaid O&M
                            assessments, a practice known as offsetting. Offsetting,




                                         6
                        however, was determined to be illegal6 because Federal
                        revenues must be deposited in the U.S. Treasury before
                        they can be used for other purposes. Congress alone
                        can appropriate Federal money. The practice of
                        offsetting arose from the Water Authorities’ need for an
                        additional source of revenue if water districts did not
                        pay their full O&M assessments.7 As non-profit
                        entities without any taxing authority, the Water
                        Authorities did not have a way to generate revenue to
                        cover the shortfall. In effect, by allowing the use of
                        offsetting, BOR provided the Water Authorities with
                        another source of revenue, which historically the
                        government has covered by asking for additional
                        appropriations. In addition, as long as the government
                        holds title to CVP facilities, it is ultimately responsible
                        for O&M.

Risk to              As a result of the poorly defined roles and responsibilities, the
Federal              Water Authorities did not assume the fiduciary responsibilities
Revenues             inherent in acting as BOR’s fiscal agents; that is, the Water
                     Authorities did not ensure that (1) payments made by water
Significantly        districts for water deliveries complied with district contracts with
Increased            BOR, (2) payment terms were enforced, and (3) payments to the
Return to Contents   U.S. Treasury were made on time. Most importantly, they did
                     not establish the controls to properly account for Federal
                     revenues collected or provide BOR with the information required
                     to maintain accurate accounting records. In effect, BOR lost
                     control of Federal revenues and did not ensure that the Water
                     Authorities, acting as its fiscal agent, had assumed control.
                     Rather than acting in tandem as partners, BOR and the Water
                     Authorities became adversaries. We found that when BOR
                     asked for information, the Water Authorities were reluctant to
                     provide it in a manner that was useful to BOR. Also, BOR did
                     not have provisions in the agreements to require compliance.



6
 At the request of BOR’s Mid-Pacific Region, the Department of the Interior’s Pacific
Southwest Regional Solicitor in Sacramento, California, reviewed the legality of the offset
provision and in a May 16, 2000 memorandum concluded that the Water Authorities could
not invest Federal funds or offset deficient O&M assessments against the Federal revenues
collected.
7
 Water districts typically do not pay their O&M costs for two reasons: (1) they cannot afford
them or (2) their O&M rates do not cover the full O&M costs. Some of BOR’s older
contracts provide for the delivery of water at fixed rates, which over time have become
insufficient to cover the cost of service. Accordingly, the rates are not high enough to cover
both Water Authority O&M assessments and costs due BOR. More recent BOR water service
contracts require districts to pay water rates that reflect the cost of service, as determined
annually, and as such, do not result in a deficit in O&M funding.


                                       7
Payment            The agreements did not specifically require the Water
Terms              Authorities to enforce the payment terms of BOR’s water
Not                service contracts with individual water districts for CVP water
Enforced           deliveries. The districts pay their water rates in advance of
                   water delivery and their water charges in the month following
                   delivery. The Water Authorities maintained records of district
                   payments, but did not report information to BOR on late or
                   missing payments. As such, BOR was not aware that these
                   payments were late and therefore could not enforce the
                   District’s payment terms itself. Although the direct funding
                   agreements require the Water Authorities to provide payment
                   data to BOR, the requirement did not specifically provide for
                   identifying untimely payments or payments not made. In
                   addition, BOR did not issue augmenting procedures requiring
                   this information from the Water Authorities. Our review of
                   payments made during water year 2000 identified the
                   following:

                            Of the 78 districts reviewed at the three Water
                            Authorities, 12 districts did not pay any of their water
                            rates in advance of delivery. The contracts and
                            Reclamation law8 stipulate that no additional water be
                            delivered until appropriate advance payments are made.
                            In our opinion, these 12 districts were not eligible to
                            continue to receive water. BOR, however, did not take
                            sufficient enforcement action to ensure compliance.

                            Of payments made to San Luis and Friant,9 we were
                            unable to verify that water rates and charges for
                            1 month were paid at all. There was no proof of
                            payment of about $985,000 of rates and charges from
                            22 of 61 districts, and we found no evidence that the
                            Water Authorities or BOR took action to collect these
                            amounts.

                            Overall, we found that 44 percent of all payments made
                            by the water districts to the Water Authorities were late.
                            Water districts, however, were not assessed interest and
                            late charges of at least $320,000 for late payments. Of
                            these payments, almost all districts paid at least one
                            advance payment late. In addition, 50 of 64 districts

    8
     Reclamation law is a term used to refer to the total body of public laws governing the
    reclamation program, beginning with the Reclamation Act of 1902 and including all
    subsequent laws that amended and supplemented the Act.
    9
     Our review of water district payments at Tehama was limited to determining whether
    payments were timely.


                                            8
                        that were required to pay annual charges made at least
                        one of these payments late.

     Water          The direct funding agreements did not provide an effective
     Authority      means for BOR to ensure that Water Authority deposits to the
     Payments       U.S. Treasury were timely. The agreements require the Water
     to U.S.        Authorities to remit the revenues they collect to the
     Treasury       U.S. Treasury within 60 days after the end of the month in which
     Untimely       the revenues were collected, including interest earnings.10 The
                    agreements, however, did not penalize the Water Authorities for
                    late payments, although BOR would be charged for any late
                    payments it makes to the Water Authorities. Had BOR assessed
                    the Water Authorities similar penalties, we believe the Water
                    Authorities would have been motivated to pay on time. Based on
                    our analysis, San Luis and Friant would have owed an estimated
                    $270,000 in penalties in water year 2000. Our review of the
                    three Water Authorities for water year 2000 revealed the
                    following:

                            San Luis and Friant did not fully comply with the
                            payment terms of the direct funding agreements. While
                            some payments (Restoration Fund charges) were usually
                            paid early, others (district advance water payments) were
                            generally paid late. Further, Friant did not forward
                            interest earnings on the Federal funds in a timely manner.

                            For San Luis and Friant, we could not reconcile
                            individual district payments to the Water Authorities with
                            amounts the Water Authorities forwarded to BOR. We
                            therefore determined the maximum amount of Federal
                            revenues each Water Authority could have held each
                            month under the direct funding agreements and compared
                            this to the actual amount on hand for each Water
                            Authority. Both San Luis and Friant had excessive cash
                            balances, with San Luis having, on average, $5.3 million
                            more than allowed and Friant having approximately
                            $100,000 in excess funds.

                            Tehama forwarded Federal funds within the timeframe
                            specified by the direct funding agreement, but sent its
                            checks to BOR’s Willows Office, as was historically
                            done by the districts served by Tehama, instead of paying


10
 Under the agreements, the Water Authorities invest the funds they collect and remit both the
collected funds and the interest earned to the U.S. Treasury. As such, the monetary effect of
Water Authority late payments was minimal.


                                       9
                                the U.S. Treasury directly.11 Despite U.S. Treasury
                                regulations to the contrary, BOR allowed Tehama to
                                continue this practice, thereby delaying deposits and
                                losing interest of about $1,300 for water year 2000.

BOR                As long as the Federal government holds title to the CVP, BOR
Accounting         must maintain official accounting records to record the
Records            outstanding construction debt owed the government by each
Adversely          water district. Under the direct funding agreements, however,
Affected           BOR no longer had access to key information to ensure that the
                   Federal revenues collected for water deliveries were properly
                   credited to water district account balances. The agreements
                   require each Water Authority to assist BOR in developing and
                   maintaining a system of water accounting12 to administer
                   Water Authority responsibilities in collecting water payments.
                   The agreements, however, did not sufficiently define such
                   responsibilities, and BOR did not issue augmenting procedures
                   outlining the method and type of documentation required from
                   the Water Authorities to account for district payments and
                   offsets. In our review of BOR accounting records for water
                   year 2000, we identified the following problems:

                            Payments to the government for water deliveries did not
                            necessarily agree with district payments to the Water
                            Authorities. San Luis and Friant, for example,
                            conducted their own accounting of water delivered to
                            each district, amounts due the government for those
                            deliveries, and amounts paid by the districts. Payments
                            to the government, however, were based on actual
                            water deliveries and did not include advance payments
                            for future water deliveries.

                            Water Authority documentation to BOR to support
                            deposits to the U.S. Treasury was incomplete. BOR
                            either did not have the information available to
                            determine what each district paid or lacked
                            explanations for any differences. San Luis, for
                            example, provided copies of bank statements and
                            district payment summary sheets, but did not provide
                            reconciliations between these documents for the amount
                            deposited as determined by its water accounting. Friant

    11
       In contrast, San Luis and Friant made their payments directly to the U.S. Treasury via
    electronic fund transfer.
    12
       The direct funding agreements refer to water accounting as fully and accurately
    documenting the allocation and deliveries of water though the CVP and accounting for the
    financial transactions related to water deliveries.


                                          10
                             did not routinely provide BOR with the documentation
                             from the districts supporting their payments.

                             San Luis and Friant used Federal revenues to offset
                             unpaid O&M assessments without providing sufficient
                             information to BOR about the transaction. This resulted
                             in BOR not being able to identify which water district
                             accounts should be credited for the payments. Friant
                             offset $458,000 of O&M assessments for two districts
                             between October 2000 and July 2001, including $10,000
                             of O&M assessments for one district that was seriously
                             delinquent in its water payments. Although Friant
                             records did not show any water deliveries to this district
                             in water years 2000 and 2001, Friant continued to assess
                             the district as if it were receiving water. We also found
                             that San Luis expanded the use of offsets to include costs
                             associated with water transfers between water districts.
                             The amount of the offset was about $217,000.

                             Adjustments to the cost of water deliveries based on how
                             the water was ultimately used13were not always validated
                             and complicated the accounting and reconciliation
                             process. The ultimate use of water delivered to a district
                             is determined by that district and also by the appropriate
                             Water Authority as part of the Water Authority’s water
                             accounting process. We were told, however, that
                             information on water use reported by the Water
                             Authorities to BOR’s Mid-Pacific Regional Office
                             differed from information reported by the districts to
                             BOR’s area offices, which entered water delivery data
                             into BOR’s water accounting system. Both the area and
                             regional offices would then become involved in resolving
                             differences. We found that water districts adjusted the
                             costs for water used up to 1 year after water delivery,
                             with no validation by BOR or the Water Authorities that
                             the adjustments were correct.

                             Transfer of fiscal responsibilities has complicated, rather
                             than simplified the reconciliation of water district and

13
  The ultimate use of the water delivered to the water districts determines the amount charged
for the water. Water used for irrigation, for example, costs less than water used for municipal
and industrial purposes. Water delivered under the Reclamation Reform Act or transferred
between districts can also be charged different water rates. The Water Authorities refer to the
process of determining how much water each district used for different purposes as “water
coloring.”


                                       11
                        BOR records. BOR regional accountants, for example, told
                        us that they had spent several months reconciling payment
                        data for two Friant districts because information provided
                        by Friant conflicted with information provided by the
                        districts. We reviewed the accounting for these two
                        districts and concluded that the Friant water accounting
                        practices had complicated the accounting process for
                        everyone.

Solicitor            At the request of BOR’s Mid-Pacific Region, the Department
Questions            of the Interior’s Office of the Solicitor, Pacific Southwest
                     Region, reviewed certain practices of the Water Authorities
Legality of          and in a May 16, 2000 memorandum concluded the direct
Water                funding agreements should be revised or amended to comply
Authority            with 31 USC 3302(c), which requires that Federal revenues
Practices            must be deposited into the appropriate U.S. Treasury account
Return to Contents   no later than the third day after the funds were received. In
                     addition, the Solicitor opined that the Water Authorities could
                     not invest Federal funds or offset deficient O&M assessments
                     against the amounts collected because only Congress is
                     empowered to appropriate Federal revenues.

                     In a June 7, 2000 letter, BOR stated that, effective
                     immediately, the Water Authorities should (1) remit all future
                     Federal funds collected within 3 business days of receipt,
                     (2) remit all previously collected Federal funds and interest
                     within 3 business days of receipt of BOR’s letter, and (3) stop
                     offsetting shortfalls in O&M funding against the Federal
                     revenues collected for water deliveries.

                     BOR intended to modify the direct funding agreements within
                     30 days of sending the letter, but did not do so. The Water
                     Authorities disregarded BOR’s instructions and instead proposed
                     to conduct their own legal review. To our knowledge, however,
                     no such review was conducted. More than 2 years later, the
                     agreements have yet to be amended. The Water Authorities
                     continued to invest Federal funds and hold them well beyond
                     3 business days, and San Luis and Friant continued to offset
                     O&M assessments against Federal revenues collected.




                                        12
Related Issue:         We found that neither BOR nor the Water Authorities had
Quality                established sufficient controls over water measurement and
                       metering activities to ensure that the measuring devices were
Assurance              accurately recording the quantity of water delivered to each
Over Water             water district. The Water Authorities have been responsible for
                       operating, maintaining, and reading water measurement devices
Measurement            that record the amount of water delivered to water districts.
Needed                 These water measurement activities facilitate the billing and
                       collection process for O&M assessments and other water
                       charges, including assessment and collection of Federal
  Return to Contents
                       revenues. Since these activities are being performed by outside
                       parties on behalf of BOR, we believe BOR needs to establish a
                       quality assurance program that will ensure the integrity of the
                       billing process.

                       Fundamental concepts of accounting controls were lacking in
                       water measurement, thereby making the water deliveries more
                       susceptible to misappropriation. Specifically:

                              Documentation supporting the calibration and accuracy
                              of water measurement devices was lacking.

                              Water measurement testing schedules were intermittent
                              and undocumented.

                              Written testing procedures for ensuring the accuracy of
                              water measurement had not been established.

                              Water delivered by BOR to the Water Authorities was not
                              reconciled to the amount delivered to the water districts
                              on a regular basis. In addition, neither BOR nor the
                              Water Authorities had established an acceptable range of
                              water that could be gained or lost within the system that
                              would not trigger an investigation of potential
                              misappropriation.

                              Written policies or procedures to resolve differences
                              between water district and Water Authority records on
                              the amounts of water delivered were not established. In
                              fact, one Water Authority official stated that since he in
                              essence worked for the water districts, he usually ruled in
                              favor of the district in any dispute.




                                      13
                                 Water measurement devices could not always be
                                 located.

                                 Meter-reading responsibilities were not rotated among
                                 Water Authority staff to facilitate detection of
                                 potential irregularities.

                                 Many water measurement records were maintained in
                                 pencil and could easily be modified to cover up
                                 irregularities. In addition, this form of record keeping
                                 did not lend itself to ready analysis of potential
                                 misappropriations of water.



Recommendations          We recommend that the Commissioner, Bureau of Reclamation,
                         direct the Regional Director, Mid-Pacific Region, to:
    Return to Contents
                              1. Take the immediate steps necessary to ensure that the
                                 Water Authorities comply with Federal law as outlined
                                 by the Office of the Solicitor.

                              2. Take action to amend the direct funding agreements to
                                 terminate Water Authority designation as fiscal agents
                                 and re-establish financial mechanisms by which water
                                 districts would directly pay BOR for their water use.

                              3. Work with the Water Authorities to reconcile each of
                                 the water district payments with the amounts retained
                                 and forwarded by the Water Authorities since the
                                 inception of the direct funding agreements.

                              4. Establish, in conjunction with the Water Authorities, a
                                 Quality Assurance Program that will ensure the
                                 integrity of the water measurement activities.




                                           14
BOR                   In his September 12, 2002 response (Appendix 1), the
Response              Commissioner concurred with all four recommendations. Based
                      on the response, we consider Recommendations 1 and 2 resolved
and Office            and implemented and Recommendations 3 and 4 resolved. We
of                    are referring Recommendations 3 and 4 to the Assistant
                      Secretary for Policy, Management and Budget for tracking of
Inspector             implementation (Appendix 2).
General               Appendix 1 does not include the attachments to the
Reply                 Commissioner’s response, which documented actions the Bureau
                      has taken to resolve and implement Recommendations 1 and 2
 Return to Contents   and resolve Recommendations 3 and 4. We commend BOR for
                      taking immediate action to resolve the deficiencies identified in
                      this report.




                                     15
Appendix 1
Page 1 of 3
Return to Contents




                     16
     Appendix 1
       Page 2 of 3




17
Appendix 1
Page 3 of 3




              18
                                                             Appendix 2
                             Status of Audit Recommendations
                                                              Return to Contents


Recommendation            Status                   Action Needed

    1 and 2      Resolved and Implemented No further response is needed

    3 and 4      Resolved; Not             We are referring the
                 implemented               recommendations to the
                                           Assistant Secretary for Policy,
                                           Management and Budget for
                                           tracking of implementation.




                            19
How to Report Fraud, Waste, Abuse, and
Mismanagement
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud,
and abuse related to Departmental or Insular Area
programs and operations. You can report allegations to us
as follows:

    Mail:      U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 5341-MIB
               1849 C Street, NW
               Washington, D.C. 20240

   Phone:      24-Hour Toll Free           (800) 424-5081
               Washington Metro Area       (202) 208-5300
               Hearing Impaired            (202) 208-2420
               Fax                         (202) 208-6023
               Caribbean Region            (703) 487-8058
               Northern Pacific Region     (671) 647-6060

   Internet: www.oig.doi.gov/hotline_form.html
